TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Fiscal Year 2008 Statutory Audit of
                      Compliance With Notifying Taxpayers
                       of Their Rights When Requested to
                         Extend the Assessment Statute



                                           June 5, 2008

                              Reference Number: 2008-40-127




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    June 5, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Fiscal Year 2008 Statutory Audit of Compliance
                                 With Notifying Taxpayers of Their Rights When Requested to Extend
                                 the Assessment Statute (Audit # 200840006)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) was complying with Internal Revenue Code Section 6501(c)(4)(B), which requires that the
 IRS provide notice to taxpayers of their rights to decline to extend the assessment statute of
 limitations or to request that any extension be limited to specific issues or a specific period of
 time. The Treasury Inspector General for Tax Administration is required to provide information
 annually regarding the IRS’ compliance with this provision.1

 Impact on the Taxpayer
 The IRS is required to notify taxpayers of their rights when requesting an extension of the statute
 of limitations for assessing additional taxes and penalties. In passing this law, Congress
 expressed concern that taxpayers were not being advised adequately of their rights to refuse to
 extend the statute of limitations or to request that a statute extension be limited to specific issues
 or a specific period of time. Based on the results of our review, we believe that the IRS is
 complying with the intent of the statute. However, there were still some instances in which IRS
 employees did not document whether taxpayers or their representatives were advised of these
 rights.




 1
     Internal Revenue Code Section 7803(d)(1)(c) (2000 Suppl. 2).
                      Fiscal Year 2008 Statutory Audit of Compliance With
                     Notifying Taxpayers of Their Rights When Requested to
                                 Extend the Assessment Statute



Synopsis
The IRS has shown improvement over prior years when documenting that taxpayers were
informed of their rights. The percentage of case files without documentation has steadily
decreased over the last 5 years. However, there were still instances in which there was no
documentation in the related case files to show that
taxpayers were advised of their rights regarding              Cases without documentation
assessment statute extensions. In our statistical sample     that taxpayers were informed of
of 139 tax returns, 8 (6 percent) of the related case           their rights decreased from
files reviewed did not adequately document that the          21 percent in Fiscal Year 2004 to
                                                               6 percent in Fiscal Year 2008.
taxpayers had been advised of their rights regarding
assessment statute extensions. This sample included
109 case files with authorizations for third-party representation. We found that 9 (8 percent) of
the 109 files did not document that the taxpayers’ representatives were provided with the
required notifications.
Our discussions with employees who worked these exception cases determined that some
employees overlooked the fact that the required information was not documented in the case file.
Other employees indicated that when a taxpayer asked them to deal directly with his or her
representative, the employees did so exclusively. Because the taxpayer did not want to be
involved in the audit process, the employees informed only the representative of the taxpayer’s
rights. This is consistent with the IRS’ position that informing a taxpayer’s representative meets
the requirement that the taxpayer be informed.

Response
We made no recommendations in this report. However, key IRS management officials reviewed
it prior to issuance and agreed with the facts and the presentation of the difference in the
interpretation of the law as to whether informing a taxpayer’s representative meets the
requirement that the taxpayer be informed. Because of the difference in the interpretation of the
law, the IRS disagrees with our outcome measure involving the protection of taxpayer rights and
entitlements for taxpayers whose related case files did not adequately document that the
taxpayers were advised of their rights when assessment statutes were extended.
However, we believe that taxpayer rights could be negatively affected if the IRS does not comply
with statutory and regulatory provisions and its own procedures and publications requiring that
taxpayers be directly notified of their rights related to extensions to the assessment statute of
limitations.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.

                                                                                                    2
                              Fiscal Year 2008 Statutory Audit of Compliance With
                             Notifying Taxpayers of Their Rights When Requested to
                                         Extend the Assessment Statute




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Internal Revenue Service Has Shown Improvement in
          Documenting That Taxpayers Were Informed of Their Rights....................Page 4
          Some Case Files Did Not Have Documentation That
          Taxpayers’ Representatives Were Provided With the
          Required Copies of the Consent Forms ........................................................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measures...............................................................Page 13
          Appendix V – Prior Audit Reports ...............................................................Page 15
          Appendix VI – Case Review Results by Division ........................................Page 16
          Fiscal Year 2008 Statutory Audit of Compliance With
         Notifying Taxpayers of Their Rights When Requested to
                     Extend the Assessment Statute




                     Abbreviations

I.R.C.         Internal Revenue Code
IRS            Internal Revenue Service
RRA 98         Restructuring and Reform Act of 1998
                          Fiscal Year 2008 Statutory Audit of Compliance With
                         Notifying Taxpayers of Their Rights When Requested to
                                     Extend the Assessment Statute




                                            Background

The Internal Revenue Service (IRS) is required by the IRS Restructuring and Reform Act of
1998 (RRA 98)1 and the Internal Revenue Code (I.R.C.)2 to advise taxpayers of their rights when
requesting an extension of the statute of limitations for
the assessment of additional taxes and penalties. When
the IRS audits a tax return and determines that there is         The IRS is required to advise
an additional tax liability, the additional tax assessment      taxpayers  of their rights when
                                                               requesting an extension of the
must generally be processed within 3 years from the date         statute of limitations for the
the return was due or from the date on which the return        assessment of additional taxes
was actually filed, whichever is later. This 3-year                     and penalties.
assessment statute of limitations normally cannot be
extended without the taxpayer’s written consent.3 To
extend the statute, the IRS generally requests that the taxpayer(s) provide a signed consent form,
either Consent to Extend the Time to Assess Tax (Form 872) or Consent to Extend the Time to
Assess Employment Taxes (Form SS-10).4
These consents extend the assessment statute of limitations to either a specific period of time or
an unlimited, indefinite period. The statute is usually extended for a period that both the IRS and
the taxpayer agree is reasonable to complete the examination. The consent can also be
negotiated to apply only to certain audit issues.
In passing the RRA 98, Congress expressed concern that taxpayers had not always been fully
aware of their rights to refuse to extend the statute of limitations or to request that a statute
extension be limited to specific issues or a specific period of time. Some taxpayers might
believe that they are required to agree to an extension upon the request of the IRS. Congress
wanted to ensure that taxpayers were informed of their rights to refuse the proposed statute
extension or to have it limited.




1
  RRA 98 Section (§) 3461 (b)(2)(B), Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections
of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and
49 U.S.C.).
2
  I.R.C. § 6501(c)(4)(B).
3
  There are some exceptions to the 3-year statute of limitations. For example, I.R.C. § 6501(c)(1) extends the
assessment statute indefinitely when false or fraudulent returns are filed.
4
  IRS employees who most often request assessment statute extensions are examiners in the various Examination
functions of the business operating divisions and appeals officers in the Office of Appeals.
                                                                                                           Page 1
                             Fiscal Year 2008 Statutory Audit of Compliance With
                            Notifying Taxpayers of Their Rights When Requested to
                                        Extend the Assessment Statute



A taxpayer might agree to extend the assessment statute of limitations for the following reasons:
       •   The taxpayer might want to pursue additional audit issues that are in the taxpayer’s favor
           in offsetting a proposed tax assessment or that might allow for a tax refund.
       •   If the remaining time before the statute expires is too short, the IRS might have to
           prematurely stop the audit process and issue a notice of deficiency that limits the time for
           the normal appeals process before the taxpayer must file a petition with the United States
           Tax Court.
A taxpayer might decide to limit or refuse to extend the assessment statute of limitations
because:
       •   The taxpayer might not want to provide the IRS more time to consider additional audit
           issues.
       •   The taxpayer might not want to allow the IRS the opportunity to further develop audit
           issues already under consideration after the normal statute period has expired.
RRA 98 Section (§) 3461 (b)(2)(B) requires the IRS to “. . . notify the taxpayer of the taxpayer’s
right to refuse to extend the period of limitations, or to limit such extension to particular issues or
                                         to a particular period of time, on each occasion when the
    The RRA 98 requires taxpayers        taxpayer is requested to provide such consent.” To
   to be informed of their rights to     implement this statutory requirement, the IRS revised its
     refuse to extend the period of      procedures to direct IRS employees to provide the
        limitations or to limit the      taxpayer with a Request to Extend Assessment Statute
   extension to specific issues or a
              period of time.
                                         (Letter 907) or Letter Transmitting Consent Extending
                                         Period of Limitation (Letter 967). Included with these
                                         Letters should be the actual consent forms to be signed and
Extending the Tax Assessment Period (Publication 1035). In addition, Federal regulations
require that any notice or other written communication required to be given to a taxpayer in any
matter before the IRS also be given to the taxpayer’s representative (unless restricted by the
taxpayer).5 IRS employees are instructed to document in their case file activity log whether the
taxpayer was notified of his or her rights each time the IRS requested an assessment statute
extension.
The Treasury Inspector General for Tax Administration is required by the RRA 98 to provide
information annually regarding the IRS’ compliance with I.R.C. § 6501(c)(4)(B). This report
presents the results of our ninth annual review of the IRS’ compliance with the statute extension
provisions of the law.6 In the previous eight reports, we continued to identify noncompliance
with procedures because documentation was not adequate to support that taxpayers were advised

5
    26 C.F.R. § 601.506 (2002).
6
    Appendix V presents a list of our prior reports.
                                                                                                Page 2
                         Fiscal Year 2008 Statutory Audit of Compliance With
                        Notifying Taxpayers of Their Rights When Requested to
                                    Extend the Assessment Statute



of their rights. However, compliance has improved since the IRS revised the various consent
forms and incorporated them into guidelines, in response to our Fiscal Year 2004 report.7
The consent forms were revised to include a prominent statement informing taxpayers of their
rights regarding assessment statute extensions and to provide information about
Publication 1035. In addition, the revised consent forms include a statement for the taxpayers’
representatives to sign, confirming that they were notified of their rights regarding assessment
statute extensions and that the taxpayers were made aware of the same rights. See Figure 1.
                                Figure 1: Excerpt From Form 872




Note: The wording in the Form SS-10 is consistent with that shown in Form 872.
Source: IRS Form 872.

This review was performed at the Office of Appeals Headquarters, Large and Mid-Size Business
Division Headquarters, Small Business/Self-Employed Division Headquarters, and Tax Exempt
and Government Entities Division Headquarters in Washington D.C., during the period
October 2007 through April 2008. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.

7
 Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When Requested to
Extend the Assessment Statute (Reference Number 2004-40-108, dated June 2004).
                                                                                                       Page 3
                                    Fiscal Year 2008 Statutory Audit of Compliance With
                                   Notifying Taxpayers of Their Rights When Requested to
                                               Extend the Assessment Statute




                                           Results of Review

The Internal Revenue Service Has Shown Improvement in
Documenting That Taxpayers Were Informed of Their Rights
Overall, the IRS continues to improve its compliance with requirements for documenting that
taxpayers were informed of their rights to refuse to extend the period of limitations or to limit
such extension to particular issues or to a particular period of time. Specifically, the percentage
of case files without required documentation has steadily decreased over the last 5 years, as
shown in Figure 2.
      Figure 2: Error Rate – No Documentation That Taxpayer Was Informed

                              25
      Error Rate Percentage




                              20


                              15


                              10


                              5


                              0
                                   2004       2005       2006             2007              2008
                                                      Fiscal Year

   Source: Prior Treasury Inspector General for Tax Administration audit reports. See Appendix V.

For Fiscal Year 2008, 8 (6 percent) of the 139 case files in our statistical sample did not contain
sufficient documentation to indicate whether taxpayers were advised of their rights before
consenting to extend the time to assess tax. In all eight cases, the taxpayer’s representative
signed Form 872 or Form SS-10, both of which contain a statement detailing the taxpayer’s
rights regarding extending the assessment statute of limitation. However, there was no evidence
in the case files documenting that the taxpayers themselves were advised of their rights.
Discussions with responsible employees who worked the cases for which documentation was not
located identified that:
                                                                                                    Page 4
                         Fiscal Year 2008 Statutory Audit of Compliance With
                        Notifying Taxpayers of Their Rights When Requested to
                                    Extend the Assessment Statute



    •   Employees simply overlooked the fact that the required information was not documented
        in the case file.
    •   Employees complied with the requests of the taxpayer to deal directly with his or her
        representative. Because the taxpayer did not want to be involved in the audit process, the
        employees informed only the representative of the taxpayer’s rights. This is consistent
        with the IRS’ position that informing a taxpayer’s representative meets the requirement
        that the taxpayer be informed.
Based on our sample results, from the population of 9,183 audits with statute extensions closed
during the first 6 months of Calendar Year 2007, we project that documentation in 5518 cases
was not adequate to show that taxpayers were advised of their rights.9 We considered that
employees had advised taxpayers of their rights if any of the required documentation appeared to
have been given to the taxpayers or a log entry to that effect was found in the related case files.
The fact that we could not identify the required documentation in the case file does not mean the
taxpayer was not informed of his or her rights. It means that, from the information available to
us, we could not determine if the taxpayer was informed.

The IRS takes the position that informing only representatives of the taxpayers’
rights meets the intent of the statute
The IRS did not agree with our eight exception cases. IRS management considers that the
requirement was met because in each of the eight cases the taxpayer’s representative was
informed of the taxpayer’s rights. In prior reviews, the IRS has taken the position that notifying
a taxpayer’s representative satisfies the requirement to notify the taxpayer. In response to our
Fiscal Year 2007 report,10 IRS management stated that:
        The law governing principals and agents provides that the authorized representative acts
        for the principal based on the authority vested in the agent by the principal. Therefore,
        we believe the IRS complies with its statutory obligation if we provide notice to either the
        taxpayer or the taxpayer’s authorized representative.
We believe that the language of the statute and the RRA 98 Congressional Committee report
indicate that the taxpayer must be notified directly. In the Committee Report, Congress
emphasized the need for taxpayers to be fully informed of their statute extension rights, stating
that “The Committee is concerned that in some cases taxpayer(s) have not been fully aware of
their rights to refuse to extend the statute of limitations, and have felt that they had no choice but
to agree to extend the statute of limitations upon the request of the IRS.”

8
  This projection is a simple average of the exception cases. The actual number is 551 ± 358 (based on actual
precision of 3.9 percent) with a 95 percent confidence level.
9
  See Appendix IV for details.
10
   Fiscal Year 2007 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When Requested to
Extend the Assessment Statute (Reference Number 2007-40-167, dated August 31, 2007).
                                                                                                         Page 5
                      Fiscal Year 2008 Statutory Audit of Compliance With
                     Notifying Taxpayers of Their Rights When Requested to
                                 Extend the Assessment Statute



As a result, RRA 98 § 3461 (b)(2)(B) emphasized that the IRS “. . . shall notify the taxpayer. . .
of their rights regarding assessment statute extensions.” This wording was carried over in
I.R.C. § 6501(c)(4)(B), which stated that the “. . . Secretary shall notify the taxpayer of the
taxpayer’s right . . .” to refuse or limit extensions. The Internal Revenue Manual states that
“. . . notification must be made to the taxpayer. . . and the taxpayer’s representative . . .”
The notification process is also explained in Practice Before the IRS and Power of Attorney
(Publication 947), in which the IRS informs the taxpayer:
       If you have a recognized representative, you and the representative will receive notices
       and other correspondence from the IRS. . . . the IRS will send your representative(s) a
       duplicate of all computer-generated correspondence that is sent to you. The IRS
       employee handling the case is responsible for ensuring that the original and any
       requested copies of each manually-generated [sic] correspondence are sent to you and
       your representative(s) in accordance with your authorization.
From the statute, regulations, and IRS procedures and publications, it is clear that the expectation
is for both the taxpayer and the taxpayer’s representative to receive notices, including
notification of the taxpayer’s rights. Although a taxpayer may permit an authorized
representative to receive notification in addition to that provided to the taxpayer, we found no
statutory or regulatory provisions allowing the taxpayer to designate certain individuals to
receive notification instead of the taxpayer.
Taxpayer rights could be negatively affected if the IRS does not comply with the RRA 98 and
follow regulations and IRS procedures requiring that taxpayers be directly notified of their rights
related to extensions to the assessment statute of limitations. However, while we still have a
difference of legal opinion, we are making no recommendation.

Some Case Files Did Not Have Documentation That Taxpayers’
Representatives Were Provided With the Required Copies of the
Consent Forms
The IRS has also improved in documenting that taxpayers’ representatives were informed of the
taxpayers’ rights to refuse to extend the statute or to limit it, as shown in Figure 3. However,
there are still some instances in which IRS employees did not document that the taxpayer’s
representative was properly advised of the taxpayer’s rights, even though the employee had
documented that the taxpayer was informed.




                                                                                             Page 6
                                         Fiscal Year 2008 Statutory Audit of Compliance With
                                        Notifying Taxpayers of Their Rights When Requested to
                                                    Extend the Assessment Statute



     Figure 3: Error Rate – No Documentation That Representative Was Informed11

                                45
                                40
        Error Rate Percentage




                                35
                                30
                                25
                                20
                                15
                                10
                                    5
                                -
                                        2004        2005       2006              2007              2008
                                                            Fiscal Year

     Source: Prior Treasury Inspector General for Tax Administration audit reports. See Appendix V.

In our sample of 139 cases, 109 contained authorizations for third parties to represent the
taxpayers before the IRS. Of these 109 cases, 9 (8 percent) did not contain any documentation
supporting that the taxpayers’ representatives were provided with the required notifications. We
estimate from our population of 5,418 cases with authorized representatives that 43312 were not
adequately documented to show the representatives were given copies of written
communications advising taxpayers of their rights.13 Our discussions with employees who



11
   Our 2004 report did not state the exact number of exceptions for this category. Therefore, the 2004 results could
include some cases in which representatives were actually informed.
12
   This projection is a simple average of the exception cases. The actual number is 433 ± 271 (based on the actual
precision of 5 percent) with a 95% confidence level.
13
   See Appendix IV for details.




                                                                                                             Page 7
                      Fiscal Year 2008 Statutory Audit of Compliance With
                     Notifying Taxpayers of Their Rights When Requested to
                                 Extend the Assessment Statute



worked the cases in which documentation was not located determined that the employees simply
overlooked the fact that the required information was not documented in the case files.
IRS regulations require that once a taxpayer representative has been recognized as such, he or
she must be given copies of all correspondence issued to the taxpayer. This applies to all
computer-generated or manually generated notices or other written communications. Without
the required documentation, we could not determine if the IRS properly notified the taxpayers’
representatives in these nine cases. Taxpayers might be adversely affected if the IRS does not
follow requirements to notify both the taxpayers and their representatives of the taxpayers’ rights
related to statute extensions.




                                                                                            Page 8
                         Fiscal Year 2008 Statutory Audit of Compliance With
                        Notifying Taxpayers of Their Rights When Requested to
                                    Extend the Assessment Statute



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

Our overall audit objective was to determine whether the IRS was complying with
I.R.C. § 6501(c)(4)(B), which requires that the IRS provide notice to taxpayers of their rights to
decline to extend the assessment statute of limitations or to request that any extension be limited
to specific issues or a specific period of time. To accomplish this objective, we:
I. Determined whether taxpayers were being advised of their rights when the IRS requested an
   extension of the assessment statute.
    A. Reviewed Internal Revenue Manual memoranda, IRS Office of Chief Counsel Opinions,
       and Appeals guidelines to determine whether there had been any changes to existing
       policies and procedures for processing requests to extend the assessment statute of
       limitations since our last audit.
    B. Identified a population of 9,183 Business Master File and Individual Master File1 closed
       examination cases with taxpayer consents to extend the assessment statute of limitations
       processed from January 1 through June 30, 2007. We validated the Business Master File
       and Individual Master File data by examining a random sample of 50 (25 from each
       Master File extract) of the 9,183 records. This random sample was used for data
       validation and not for projecting or reporting results.
        The validation test results demonstrated that the data were reliable and could be used to
        meet the objective of this audit. We developed a statistical sampling plan using a
        95 percent confidence level, an expected error rate of 10 percent, and a precision of
        ±5 percent, which resulted in a minimum sample size of 137 tax returns (closed cases). A
        statistical sample was taken because we wanted to estimate the number of tax returns in
        the population for which taxpayer rights were potentially affected.
    C. Randomly selected a sample of 1392 closed cases from the population identified in
       Step I.B. We met our sample size of 139 cases after ordering 624 tax returns and related
       case files and eliminating 485 tax returns that either did not meet our criteria3 or for
       which we did not receive all the requested tax returns and related case files. In our


1
  The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes. The Individual Master
File is the IRS database that maintains transactions or records of individual tax accounts.
2
  The actual sample size differs from the minimum because we oversampled by two cases.
3
  No consent form is required for a return that has the statute date extended for procedural issues. Our criteria
required a signed consent form to be a valid sample case.
                                                                                                          Page 9
                  Fiscal Year 2008 Statutory Audit of Compliance With
                 Notifying Taxpayers of Their Rights When Requested to
                             Extend the Assessment Statute



   sample of 139 cases, 109 had authorizations for third parties to represent the taxpayers
   before the IRS.
D. Reviewed the 139 selected tax returns and related case files for the necessary
   documentation to verify whether taxpayers and their representatives, if applicable, were
   properly advised of their rights regarding assessment statute extensions and whether the
   revised consent forms were used in the process.
E. Discussed exceptions identified with the IRS business unit or function that had requested
   the extension for concurrence or an explanation of why the IRS believed that proper
   procedures were followed. We also discussed the exceptions with the employees who
   had worked the cases to determine the root cause of why procedures were not followed.




                                                                                      Page 10
                    Fiscal Year 2008 Statutory Audit of Compliance With
                   Notifying Taxpayers of Their Rights When Requested to
                               Extend the Assessment Statute



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Program)
Scott Macfarlane, Director
Russell Martin, Director
Richard Calderon, Audit Manager
Steven Stephens, Lead Auditor
Karen Fulte, Senior Auditor
Jennie Choo, Auditor
Jane Lee, Auditor




                                                                                   Page 11
                     Fiscal Year 2008 Statutory Audit of Compliance With
                    Notifying Taxpayers of Their Rights When Requested to
                                Extend the Assessment Statute



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Communications and Liaison, Tax Exempt and Government Entities Division
SE:T:CL
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Field Specialists, Large and Mid-Size Business Division SE:LM:FS
Director, Communication and Liaison, Large and Mid-Size Business Division SE:LM:M:CL
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM:CL
       Commissioner, Small Business/Self-Employed Division SE:S:COM
       Commissioner, Tax Exempt and Government Entities Division SE:T:CL
       Chief, Appeals AP:TP:SS




                                                                                    Page 12
                         Fiscal Year 2008 Statutory Audit of Compliance With
                        Notifying Taxpayers of Their Rights When Requested to
                                    Extend the Assessment Statute



                                                                                              Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our prior
recommendations will have on tax administration (these prior recommendations continue to
provide benefits). These benefits will be incorporated into our Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 551 taxpayers whose related case files did not
    contain adequate documentation to show that the taxpayers were advised of their rights when
    assessment statutes were extended (see page 4).

Methodology Used to Measure the Reported Benefit:
To determine the number of taxpayers for which documentation was not adequate to support that
the taxpayers were advised of their rights, we electronically identified 9,183 tax returns from the
universe of Business Master File and Individual Master File1 tax returns (processed from
January 1 through June 30, 2007) for which the assessment statute was extended. Because of the
difficulty we encountered with obtaining the associated case files for some of these returns, we
requested a total of 624 tax returns for which the assessment statute was extended. We met our
sample size of 139 cases after ordering 624 tax returns and related case files and eliminating
485 tax returns that either did not meet our criteria2 or for which we did not receive all the
requested tax returns and related case files. We reviewed the sample of 139 tax returns to
determine if taxpayers were advised of their rights and identified 8 taxpayers (6 percent) for
whom the required documentation was not found. We then multiplied this exception percentage
by the population to project the total number of taxpayers whose case files did not have sufficient
documentation (9,183 * 6 percent = 551 taxpayers). This projection is a simple average of the
exception cases. The actual number is 551 ± 358 (based on actual precision of 3.9 percent) with
a 95 percent confidence level.




1
  The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes. The Individual Master
File is the IRS database that maintains transactions or records of individual tax accounts.
2
  No consent form is required for a return that has the statute date extended for procedural issues. Our criteria
required a signed consent form to be a valid sample case.
                                                                                                         Page 13
                      Fiscal Year 2008 Statutory Audit of Compliance With
                     Notifying Taxpayers of Their Rights When Requested to
                                 Extend the Assessment Statute



Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 433 taxpayers whose related case files were
    not documented to show that the taxpayers’ representatives were given copies of the written
    communications advising taxpayers of their rights regarding assessment statute extensions
    (see page 6).

Methodology Used to Measure the Reported Benefit:
To determine the number of taxpayers for which documentation was not adequate to support that
the taxpayers’ representatives were advised of the taxpayers’ rights, we used the same sample of
139 tax returns and identified 109 files that contained an authorization for a third party to
represent the taxpayer before the IRS. In 9 (8 percent) of the 109 case files, there was no
documentation that employees provided the representatives with a copy of the written
communications provided to the taxpayers. We then determined the number of taxpayers in the
population that had authorizations to represent the taxpayers (5,418), and multiplied the
exception percentage by that population to project the total number of taxpayers whose case files
did not have sufficient documentation to indicate that the representative was informed
(5,418 * 8 percent = 433 taxpayers). This projection is a simple average of the exception cases.
The actual number is 433 ± 271 (based on the actual precision of 5 percent) with a 95 percent
confidence level.




                                                                                         Page 14
                     Fiscal Year 2008 Statutory Audit of Compliance With
                    Notifying Taxpayers of Their Rights When Requested to
                                Extend the Assessment Statute



                                                                              Appendix V

                              Prior Audit Reports

The Treasury Inspector General for Tax Administration has previously performed eight
mandatory audits in this subject area. These audits were:
Fiscal Year 2007 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2007-40-167, dated
August 31, 2007).
Fiscal Year 2006 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2006-40-163, dated
September 21, 2006).
Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2005-40-112, dated July 2005).
Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2004-40-108, dated June 2004).
Fiscal Year 2003 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2003-40-193, dated
September 2003).
Improved Documentation Is Needed to Ensure Taxpayers Are Informed of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2002-40-175, dated
September 2002).
Most Taxpayers Are Advised of Their Rights Before Signing an Agreement to Extend the
Assessment Statute of Limitations (Reference Number 2001-10-157, dated September 2001).
Information Provided to Taxpayers When Requesting Extensions of the Assessment Statute of
Limitations Can Be Improved (Reference Number 2000-10-142, dated September 2000).




                                                                                       Page 15
